<html>
<title> - THE SYRIAN REFUGEE CRISIS AND ITS IMPACT ON THE SECURITY OF THE U.S. REFUGEE ADMISSIONS PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                           
 
                     THE SYRIAN REFUGEE CRISIS AND
                   ITS IMPACT ON THE SECURITY OF THE
                    U.S. REFUGEE ADMISSIONS PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2015

                               __________

                           Serial No. 114-48

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         
         
         


      Available via the World Wide Web: http://judiciary.house.gov
                               _________
      
      
      
      
                                   U.S. GOVERNMENT PUBLISHING OFFICE
      97-632 PDF                           WASHINGTON : 2015       
     _________________________________________________________________________________
      For sale by the Superintendent of Documents, U.S. Government Publishing Office,
            Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
           Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                  RAUL LABRADOR, Idaho, Vice-Chairman

LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
JOHN RATCLIFFE, Texas                PEDRO R. PIERLUISI, Puerto Rico
DAVE TROTT, Michigan

                     George Fishman, Chief Counsel

                     Gary Merson, Minority Counsel
                     
                     
                     
                            C O N T E N T S

                              ----------                              

                           NOVEMBER 19, 2015

                                                                   Page

                               WITNESSES

Anne C. Richard, Assistant Secretary, Bureau of Population, 
  Refugees, and Migration, U.S. Department of State
  Oral Testimony.................................................     3
  Prepared Statement.............................................     5
The Honorable Leon Rodriguez, Director, U.S. Citizenship and 
  Immigration Services, Department of Homeland Security
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Seth G. Jones, Director, International Security and Defense 
  Policy Center, RAND Corporation
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
Mark Krikorian, Executive Director, Center for Immigration 
  Studies
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33
Mark Hetfield, President and CEO, HIAS
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    58
The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................    59
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................    61
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration and Border Security........    75

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration and Border Security........    94
                        OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Submissions for the Record from the Honorable Zoe Lofgren, a 
    Representative in Congress from the State of California, and 
    Ranking Member, Subcommittee on Immigration and Border Security. 
    These submissions are available at the Subcommittee and can also be 
    accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104197.

Submissions for the Record from the Honorable Steve King, a 
    Representative in Congress from the State of Iowa, and Member, 
    Subcommittee on Immigration and Border Security. These submissions 
    are available at the Subcommittee and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104197.


 THE SYRIAN REFUGEE CRISIS AND ITS IMPACT ON THE SECURITY OF THE U.S. 
                       REFUGEE ADMISSIONS PROGRAM

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2015

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 9 a.m., in room 
2141, Rayburn House Office Building, the Honorable Trey Gowdy 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Labrador, Smith, King, 
Buck, Ratcliffe, Trott, Goodlatte, Lofgren, Gutierrez, Jackson 
Lee, and Conyers.
    Staff Present: (Majority) George Fishman, Chief Counsel, 
Subcommittee on Immigration and Border Security; Andrea Loving, 
Counsel, Subcommittee on Immigration and Border Security; 
Kelsey Wiliams, Clerk; (Minority) Perry Apelbaum, Staff 
Director & Chief Counsel; Danielle Brown, Parliamentarian & 
Chief Legislative Counsel; Gary Merson, Chief Immigration 
Counsel; Maunica Sthanki, Immigration Counsel; Micah Bump, 
Immigration Counsel; and Rosalind Jackson, Professional Staff 
Member.
    Mr. Gowdy. The Judiciary Committee will come to order. 
Without objection, the Chair is authorized to declare a recess 
of the Committee at any time.
    We welcome everyone to this morning's hearing on the Syrian 
Refugee Crisis and Its Impact on the Security of the United 
States Refugee Admissions Program. I will just tell everyone 
that proper decorum is going to be observed. The witnesses 
deserve to be heard. The members deserve to be heard. This will 
be your one and only warning in that respect.
    Secondarily, I will tell our witnesses we are going to do 
things a little bit differently this morning. I have some 
colleagues that will be here very shortly. So we are going to 
recognize our witnesses for their opening statements before we 
recognize the members for theirs. And because there's a lot of 
floor activity this morning at 10:30, we want to get as much 
done as we can. So while each of you has very vast and 
impressive resumes, I'm probably going to skip them as I 
introduce you and just recognize you by your name for your 
opening.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
    Mr. Gowdy. Before I do that, I would ask everyone to rise 
for the administration of an oath. Just the witnesses. I'm 
sorry. That is my fault. That was my fault. I was ambiguous. 
That was my fault.
    Do you swear the testimony you're about to give is the 
truth, the whole truth, and nothing but the truth so help you 
God? May the record reflect all the witnesses answered in the 
affirmative.
    I am going to introduce you en banc and then recognize you 
individually for your opening. We are delighted to have Ms. 
Anne Richard. We are delighted to have Mr. Leon Rodriguez. We 
are delighted to have Mr. Seth Jones. We are delighted to have 
Mr. Mark Krikorian. And we are delighted to have Mr. Mark 
Hetfield. With that, Ms. Richard, I would recognize you for 
your 5-minute opening.

 TESTIMONY OF ANNE C. RICHARD, ASSISTANT SECRETARY, BUREAU OF 
 POPULATION, REFUGEES, AND MIGRATION, U.S. DEPARTMENT OF STATE

    Ms. Richard. Thank you very much, Mr. Chairman. And thank 
you to the Subcommittee for holding this important hearing at 
such a key moment in the discussions about the program, the 
very successful program that the U.S. Government has to bring 
refugees to the United States so they can restart their lives 
after living through very, very difficult situations of war and 
persecution.
    I know the murderous attacks in Paris last Friday evening 
have raised many questions about the spillover of not just 
migrants to Europe, but also the spread of violence from war 
zones in the Middle East to the streets of a major European 
capital. Let me assure you that the entire executive branch and 
the State Department that I represent, has the safety and 
security of Americans as our highest priority. As an essential 
fundamental part of U.S. Refugee Admissions Program, we screen 
applicants rigorously and carefully in an effort to ensure that 
no one who poses a threat to the safety and the security of 
Americans is able to enter our country. All refugees of all 
nationalities considered for admission into the United States 
undergo intensive security screening involving multiple Federal 
agencies, intelligence, security, and law enforcement agencies, 
including the National Counterterrorism Center, the FBI's 
Terrorist Screening Center, and the Departments of Homeland 
Security, State, and Defense.
    Consequently, resettlement is a careful and deliberate 
process that can take 18 to 24 months. Applicants to the U.S. 
Refugee Admissions Program are currently subject to the highest 
level of security checks of any category of traveler to the 
United States. These safeguards include biometric and 
fingerprint, and biographic checks, and a lengthy in-person, 
overseas interview by specially-trained DHS officers who 
scrutinize the applicant's explanation of individual 
circumstances to ensure the applicant is a bona fide refugee 
and is not known to present security concerns to the United 
States.
    Now, Leon will talk more about this, it's really in his 
department that the responsibility lies to determine who comes 
and who does not come. But we work so closely with them. I want 
to say that they are incredibly careful. And if they have any 
doubts, they will not allow anyone to enter the United States. 
No one has a right to resettlement in the United States. It is 
something that we offer based on our history and our 
humanitarian values.
    The vast majority of the 3 million refugees who have been 
admitted to the United States, including from some of the most 
troubled regions of the world, have proven to be hard-working 
and productive residents. They pay taxes, send their children 
to school, and after 5 years, many take the test to become 
citizens. Some serve in the U.S. military and undertake other 
forms of service for their communities and our country. And,in 
fact, our program is so well regarded, other countries come to 
us to learn more about it. And I'll be taking the British 
member of parliament, Richard Harrington, who is responsible 
now for trying to get more refugees through a process to the 
U.K., for a visit to one of our centers tomorrow.
    So I'm happy to answer any questions you may have about 
this, about anything in my testimony. And my testimony talks 
about our humanitarian assistance overseas and our diplomatic 
efforts. But I know that right now, the American public wants 
to hear that our first priority is the safety of the American 
people. Thank you.
    [The prepared statement of Ms. Richard follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                               __________
    Mr. Gowdy. Thank you, Ms. Richard. Mr. Rodriguez.

   TESTIMONY OF THE HONORABLE LEON RODRIGUEZ, DIRECTOR, U.S. 
 CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Rodriguez. Thank you, Chairman Gowdy. And good morning, 
Congressmen King and Smith. I think we can stipulate to two 
things: That the United States has a proud and long tradition 
of admitting refugees from some of the worst crises and most 
dangerous places in the world. And, secondly, that the 
situation in and around Syria is an untenable one, with 11 
million people displaced.
    The question is, if we are to continue that tradition of 
being a welcoming country, can I, as the Director of the agency 
that vets refugees, assure the American people that we are 
using all the resources that we have and that that those 
resources are meaningful resources to vet refugees.
    And what I'm here to tell you this morning is the process, 
as Assistant Secretary Richard described, is a multi-layered, 
robust, and intensive process through which individuals must 
pass before they can travel to the United States. Given the 
limitations of time, I will signpost three critical phases of 
that process. There is the United Nations High Commission on 
refugee phase. There is the Department of State phase. There is 
then the phase conducted by my refugee officers. And hopefully 
I will have a little bit of time during questioning to dig into 
some of those elements further.
    During the UNHCR process, individuals for the first time 
are interviewed as to the substance of their claim for refugee 
status. Extensive biographical information is captured, as well 
as preliminary analysis as to whether there are potential bars 
or other disqualifiers that apply to those individuals. The 
fruits of those interviews are then passed to the State 
Department and, ultimately, to USCIS.
    At the State Department stage, a second layer of interview 
is conducted. At that point, a series of critical biographic 
checks are initiated. There are three critical legs to that 
check. The first is the Consular Lookout Advisory Support 
System which queries against a number of critical law 
enforcement and intelligence holdings of the security advisory 
opinions, which are hosted by the FBI, but most important of 
all, what is called the interagency check. That is checked 
against a number of both law enforcement and intelligence 
holdings.
    And important for me to let you know this morning, that 
through that suite of checks, we have, in fact, either denied 
refugee status to individuals or, at a minimum, placed them on 
hold based on derogatory information that came up through that 
check. That check is populated by the extensive work that is 
being done by the U.S. intelligence services which is, indeed, 
one of the most robust, well-developed intelligence services in 
the democratic world.
    At that point, they come to my refugee officers who have 
extensive training both generally in protection law, refugee 
law, and interviewing, but then also very specific and targeted 
training as to conditions in Syria, including the lessons 
learned during the refugee process. As we interview each 
refugee or each family of refugees, we gain more and more 
information and more and more clarity as to what is going on in 
Syria. That is coupled with another round of fingerprinting, a 
set of biometric checks, checks against Department of Defense 
databases, Customs and Border Patrol databases, FBI databases, 
which further check the status of these individuals.
    Also, when I talk about the interagency check, I would note 
the fact that that is now a recurrent process. So these 
individuals are checked on an ongoing basis, so that if new 
derogatory information arises about these individuals during 
the process, that comes to our attention during the process.
    I hope I have further opportunity during the questioning to 
elucidate each step of this process because I think it is 
critical for the American people to get the reassurance they 
need to continue to be the kind of welcoming country that we 
are. But I also ask us to consider the price of inaction, the 
fact that being welcoming to refugees contributes to the 
stability of the region, it puts us side by side with our 
allies in Europe who, in fact, are taking on this problem to 
the same extent or greater than we are, and honors our 
tradition as American people.
    Thank you, Chairman. Thank you, Congressmen.
    [The prepared statement of Mr. Rodriguez follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                    __________
    Mr. Gowdy. Thank you, Mr. Rodriguez. Mr. Jones.

 TESTIMONY OF SETH G. JONES, DIRECTOR, INTERNATIONAL SECURITY 
          AND DEFENSE POLICY CENTER, RAND CORPORATION

    Mr. Jones. Thank you, Chairman, and distinguished Members 
of the Subcommittee. This is an important subject. And the 
tragic attacks in Paris over the weekend and the links with 
Syria make this hearing particularly important.
    I've divided my comments into two sections. The first will 
provide an overview of the foreign fighter problem from Syria 
and the region. The second, implications for refugees in the 
homeland.
    My background and the focus of my remarks is primarily on 
terrorist groups and foreign fighters. That's my expertise, 
serving and working for U.S. Special Operations and for the 
FBI's 9/11 Commission last year, where we did look at some of 
this stuff for Director Comey.
    The first, let me just talk about the extremist threat from 
Syria just to, obviously, put this into perspective. U.S.-led 
airstrikes and strikes recently from France and other coalition 
partners have probably halted advance of Daesh or the Islamic 
State in Syria. And across the border in Iraq, the U.S. 
efforts, including Special Operation forces on the ground, have 
helped halt the advance in places like Sinjar and supported 
Iraqi Army operations. But the group remains strong. Daesh 
remains strong and is currently not on the ropes.
    In addition, in Syria, the al-Qaeda affiliated Jabhat al-
Nusra is probably more capable now, that is, fighters, funds, 
territory, than at any time since its creation in 2011. It's an 
affiliate, which means it's pledged allegiance to Ayman al-
Zawahiri and al-Qaeda Core back in Pakistan.
    Obviously of concern for the U.S. is the shear number of 
foreign fighters we have seen traveling to, and to some degree, 
from Syria and Iraq. The battlefield is the largest 
concentration of foreign extremists we have seen in any major 
war, certainly ones that I have participated in, and looked at 
the numbers in Pakistan, in Afghanistan, in Somalia, in Libya. 
National Counterterrorism numbers put this at over 20,000 
foreign fighters who traveled to Syria to fight, about 17 
percent of them have come from the West, with, depending on how 
you count it, somewhere in the neighborhood of 200 Americans 
that have traveled, or attempted to travel, to Syria mostly to 
fight against the Assad regime.
    Obviously, we've seen plots tied to operationally or 
inspired by Daesh, the Islamic State in Paris recently, in 
Garland, Texas, in Copenhagen, Denmark, in Australia, in 
Ottawa, Canada, in Brussels, and then in other locations. So 
the threat clearly emanating from this region is clear. I note 
the recent MI5 director's comments, the head of British 
domestic intelligence agency, saying that they have 750 British 
extremists that have traveled to Syria. Many have joined Daesh. 
And they have been involved in at least 6 mass casualty plots 
in the U.K. which have been foiled. So the threat is notable 
coming to our European allies and to some degree to the U.S. 
homeland.
    So that brings me back to the U.S. and the refugee issue. 
And let me start by saying that refugees clearly have played an 
important historical role in the United States, in ensuring 
U.S. economic prosperity and cultural diversity. The plots we 
looked at last year on the FBI's 9/11 commission, from 
Najibullah Zazi to Faisal Shahzad, the Time Square bomber, to 
David Headley, based out of Chicago, who was involved in the 
Mumbai attacks and plots in Copenhagen, almost none of these 
major attacks or individuals were refugees.
    So, the threat historically has been relatively small. But 
I would just highlight a couple of things that make the Syria 
picture and Iraq also to some degree worth noting. One is, as I 
said earlier, we see the highest number of foreign fighters on 
any modern jihadist battlefield in the Syria/Iraq border. And 
that border is obviously very porous. And there obviously have 
been an exodus of fighters into the West.
    Second, several European intelligence agencies have 
expressed concern about refugees, particularly into Europe, 
that have been in contact with Daesh or the Islamic State, 
including most recently in Belgium. So there have been some 
concerns in some cases after they've gotten into Europe.
    And then, third, I would say, and this is based partly on 
my own experience, what we had in Iraq and Afghanistan was a 
pretty good intelligence architecture to collect information on 
individuals including those that came through prisons. We 
certainly don't have this in the Syrian context. I'm happy to 
talk in more detail about this.
    Let me just conclude by saying that the U.S. has a 
longstanding tradition of offering protection and freedom to 
refugees. But obviously an integral part of that needs to be 
ensuring that those individuals considered provide--that the 
U.S. is able to provide security to the homeland. And the Syria 
battlefield is of some concern just because of the U.S. 
collection gap that exists compared to other battlefields we've 
been involved in. So thank you very much.
    [The prepared statement of Mr. Jones follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                               __________
    Mr. Gowdy. Thank you, Mr. Jones. Mr. Krikorian.

  TESTIMONY OF MARK KRIKORIAN, EXECUTIVE DIRECTOR, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. Krikorian. Thank you, Chairman. Refugee protection 
policy has to be based on two principles. One, whatever 
policies we adopt must not pose a threat to the American 
people. And, secondly, whatever money we take from our people 
through taxes to devote to these purposes should yield the 
maximum humanitarian effect. And, unfortunately, resettlement 
of refugees in the United States from Syria or from Yemen or 
Somalia or other failed states, fails on both of those counts.
    Hillary Clinton said at the debate this weekend that United 
States should spend ``whatever it takes,'' to properly screen 
Syrian refugees. I think everybody would agree with that. But 
it misses the point. The problem is not that we're devoting 
inadequate resources. It's certainly not that our people in DHS 
or FBI or State are not committed, our people are doing the 
best job they can. The problem is that proper screening of 
people from Syria cannot be done. We are giving our people an 
assignment which they cannot accomplish successfully.
    We imagine in a modern, developed country like ours that 
everybody in the world leaves behind them the kind of 
electronic traces that we do, birth certificates, driver's 
licenses, school records, all of those things that we kind of 
take for granted. But the fact is that those tracks, those 
traces are nonexistent in much of the world even in the best of 
circumstances. And in the kind of situation, the chaotic 
situation we have in Syria or in Somalia or Yemen or Libya or 
Afghanistan, what little information that might have been 
existed has probably gone up in smoke or at the very least is 
inaccessible to us.
    DHS Secretary Jeh Johnson made that very point just last 
month when he said, ``we're not going to know a lot about the 
individual refugees who come forward.'' That's true. And, in 
fact, just this week, we found more evidence of that. The 
French sent our intelligence agency the fingerprints of the 
attackers in Paris and there was no trace of them anywhere in 
our databases, the very databases that we are supposed to be 
using to screen the Syrian refugees. Our screening of refugees 
resembles, and I don't mean to be flip here, but it really does 
resemble the joke about the drunk who loses his keys in the 
park but is searching for them under the streetlight. And when 
asked why he's doing that, he said well, the light is better 
here. The clearest statement of this came from Matthew Emerich, 
nothing personal, Mr. Emerich, who is in charge of fraud 
detection at USCIS, he told the Senate last month, ``We check 
everything that we are aware of within U.S. Government 
holdings.'' Because the light is better there.
    The second point is efficacy. In other words, are the 
resources we're devoting to humanitarian protection for 
refugees, whether it's Syria or anywhere else, being used to 
the maximum effect? And bringing refugees to our country makes 
us feel better. I assume Mr. Hetfield will give us some warm 
stories about that. And it does make us feel better. But the 
point of humanitarian protection of refugees is not to make us 
feel better, it's to assist as many people as possible with 
whatever resources we've decided to devote to this purpose. And 
what we found, we did research on this, and we found that it 
cost 12 times as much to resettle a refugee from Syria, from 
the Middle East, in the United States as it does to provide for 
them in their own region. In this case, in, say, Syrian 
refugees in Turkey or Jordan or Lebanon, which is where most of 
them are.
    The 5-year cost we conservatively estimated of resettling a 
refugee from the Middle East is $64,000 compared to U.N. 
Figures that indicate a 5-year cost for caring for people in 
the region would be about $5,300. In other words, each refugee 
that we bring to the United States from the Middle East means 
that 11 other people are not being helped with those same 
resources. The image I like to think about when considering 
this is imagine you have 12 drowning people. What are you going 
to do? Do you send them a one man yacht that's a very nice, 
beautiful yacht but holds only one person? Or do you throw them 
12 life preservers? The moral choice is obvious there. And yet 
what we're doing through the best of intentions is sending the 
one person yacht instead of throwing them 12 life preservers.
    In conclusion, Congress has a variety of measures to 
address this Syrian refugee issue. And I'm not qualified to say 
whether we should have a temporary pause or whether there 
should be a suspension of funding or a broad change in the 
rules. These are questions you're going to consider. But in 
considering them, I urge you to keep in mind these two points: 
The only way to reduce the security risk of resettling Syrian 
refugees or Somali or Yemeni or Libyan or Afghan is to reduce 
the number that we resettle. And the government's obligation to 
make the most effective use of the funding that we have taken 
from our people to devote to refugee protection, compels a 
shift in emphasis away from resettlement toward greater 
protection for people in the region. Thank you.
    [The prepared statement of Mr. Krikorian follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                 __________
    Mr. Gowdy. Thank you. Mr. Hetfield.

      TESTIMONY OF MARK HETFIELD, PRESIDENT AND CEO, HIAS

    Mr. Hetfield. Thank you, Chairman Gowdy, Raking Member 
Lofgren, and distinguished Members of the Subcommittee for 
inviting me to speak here today on behalf of HIAS, which is the 
oldest refugee agency in the world. We have been resettling 
refugees since 1881, not just because it makes us feel better 
but because it saves lives.
    Refugee resettlement has saved millions of lives since 1881 
but not nearly enough. We're confronting the world's most 
horrific refugee crisis since World War II, with 60 million 
displaced across the globe, 20 percent of whom are Syrians, 
fleeing a conflict that has already taken over 240,000 lives. 
Without considerably more international assistance, countries 
like Lebanon, Jordan, and Turkey are beyond their saturation 
points with over 4 million Syrians, causing refugees to risk 
their lives to flee for a second or a third time.
    The crisis finally attracted international attention and 
attention in this country when the body of 3 year-old Syrian 
Aylan Kurdi washed up on a Turkish beach on September 2, one of 
813 men, women, and children asylum seekers to perish at sea 
that month trying to make the perilous journey to Europe.
    This is an extraordinary crisis requiring extraordinary 
leadership. But, so far, the United States' response has been 
tepid at best. While this is the largest refugee crisis of my 
lifetime, we're resettling far fewer refugees than we did in 
1980, when we resettled over 200,000 Indo-Chinese refugees, or 
in 1993 and 1994 when we resettled well over 110,000 refugees 
each year. But my great sadness at the murderous acts of 
terrorism perpetrated in Beirut and Paris last week has been 
compounded by the reactions of some politicians in this 
country. They have diverted the focus away from fighting 
terrorism and toward keeping refugees out of our country and 
out of their States. They have blamed the victims. This plays 
on people's fears, turns prejudice into policy, and weakens our 
national security and our national character.
    I mistakenly thought that attitudes and signs, like Irish 
need not apply, no coloreds, no Jews, or dogs allowed, were 
ugly relics buried in the past but apparently not. Governors 
are clearly saying openly no Syrian Muslims are welcome in my 
State. One Governor even said, from my home State of New 
Jersey, no Syrian orphans under 5 are welcome either, which can 
only recall the ugly debate that occurred in this House in 1939 
which resulted in the defeat of the Wagner-Rogers bill which 
would have saved 20,000 refugee children from Nazi Germany.
    Governors are right to be concerned about security but so 
is the Federal Government, so are the refugee resettlement 
agencies. And the extensive screening process in our refugee 
program reflects that as Director Rodriguez has already 
testified and as is in my testimony. While the number of Syrian 
refugees being resettled here today is relatively anemic, the 
security protocols in place are stronger than anything I have 
ever seen in my 26 years working in this field. So strong, that 
it has made the refugee resettlement program into more fortress 
than ambulance, causing massive backlogs of legitimately 
deserving and unnecessarily suffering refugees.
    The fear of resettled refugees here is based on erroneous 
assumptions. The flow of refugees to Europe is entirely 
dissimilar to the refugees accepted through the U.S. refugee 
resettlement program. The refugees who arrive in the U.S. have 
undergone extensive security vetting prior to setting foot on 
U.S. soil. Refugees to Europe are not screened until after they 
enter. This is the distinction. It simply does not make sense 
for U.S. lawmakers to react to the tragedy in Paris by 
proposing legislative changes to the U.S. refugee program.
    History has demonstrated that our democracy cannot only 
withstand large influxes of refugees from other countries, but 
will prosper as a result. When we welcomed millions of refugees 
from communist, fascist, and Nazi regimes, our country did not 
become infected with any of these ideologies, nor with the 
terror associated with them. If anything, these refugees 
immunized us from the totalitarian ideologies they were 
fleeing. The USRAP is hardly a piece of swiss cheese. It is not 
a sieve. And, in essence, it is not even the wide-reaching 
rescue program that it was intended to be. Given the 
complexity, intrusiveness, and unpredictability of the program 
for refugees, it seems highly unlikely, if not impossible, that 
a terrorist would choose the refugee resettlement program as 
his or her pathway to the U.S.
    My written testimony outlines a number of suggestions to 
improve the program while increasing both security and 
efficiency. But it does not recommend a certification process.
    Thank you for inviting me to testify here today on Syrian 
refugees. This country must continue to be both welcoming and 
safe.
    [The prepared statement of Mr. Hetfield follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                   __________
    Mr. Gowdy. Thank you, Mr. Hetfield. I will remind the 
witnesses and the members to direct their responses and 
comments to the appropriate audiences. For members, it would be 
not to one another. And to witnesses, it would be not to one 
another. With that, I would recognize the Ranking Member of the 
full Committee, the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman. I apologize for 
appearing late. But this is an important hearing which focuses 
on the Syrian refugee crisis and its impact on the security of 
our Nation's Refugee Admissions Program. It has the potential 
to shed meaningful light on critical issues of interest to all 
Americans, to all of us.
    Unfortunately, the value of today's undertaking is greatly 
diminished by the fact that immediately following the 
conclusion of this hearing, we will go directly to the floor to 
vote on H.R. 4038, the so-called American Safe Act, a bill that 
would effectively shut down refugee processing for Syrians and 
Iraqis. Clearly, there are no easy solutions to a humanitarian 
crisis of this magnitude, as well as the security threats we 
will hear about today. Yet, 4038 is not the right answer in my 
view. And I want the witnesses to please let us know what 
should be our response keeping in mind these factors.
    To begin with, while ensuring that safety of all Americans 
should be our top priority, H.R. 4038, which would effectively 
debar Syrian and Iraqi refugees from the U.S. Refugee 
Admissions Program and does nothing to promote security. This 
measure sets unreasonable clearance standards that the 
Department of Homeland Security cannot meet and, thereby, would 
halt refugee resettlement in the United States which is, 
perhaps, what the whole point of their doing this is.
    So, without question, the program should be held to the 
highest standards to ensure to the greatest extent possible 
that the security screening is thorough, effective, and timely. 
In fact, refugees are already subject to the highest level of 
vetting, more than any other traveler or immigrant to the 
United States. This extensive screening process performed by 
the Departments of Homeland Security and State, in conjunction 
with the CIA, the FBI, and other law enforcement agencies, 
relies on methodical and exhaustive background checks that 
often take up to 24 months on average to complete and even 
longer in some cases.
    But, like any system, there can be room for further 
improvement. So I would appreciate your thoughts here and after 
this hearing on how we can accomplish that goal. We must keep 
in mind that our Nation was founded by immigrants and has 
historically welcomed refugees when they're suffering around 
the globe. Whether it's an earthquake in Haiti, a tsunami in 
Asia, or 4 years of civil war in Syria with no end in sight, 
the world looks to the United States. We provide protections 
for refugees and asylum seekers, especially women and children. 
Nevertheless, in the wake of the September 11 attack on our 
shores and the tragic November 13 terror attacks in Paris, we 
must be vigilant, especially in the midst of a global refugee 
crisis.
    The measure I keep referring to, however, is an extreme 
overreaction to these latest security concerns. Rather than 
shutting our doors to the desperate men and women and children 
who are risking their lives to escape death and torture in 
their own homelands, we should work to utilize our immense 
resources and good intentions of our citizens to welcome them.
    And, finally, Congress may do its part by properly funding 
refugee resettlement, as well as funding our Federal agencies 
so that they have the necessary personnel and programs to 
complete security checks. Rather than slamming the doors to the 
world's most vulnerable, we should be considering legislation 
to strengthen and expand refugee programs.
    For example, I'm a co-sponsor of H.R. 1568, the Protecting 
Religious Minorities Persecuted by ISIS Act, which allows 
persecuted individuals in ISIS-held territories in Iraq and 
Syria to apply directly to the U.S. Refugee Admissions Program. 
Rather than rushing to the floor to consider legislation that 
was introduced just 2 days ago and has not been subject to even 
a single hearing, we should devote our legislative resources to 
developing meaningful solutions. And I thank the Chair very 
much for this opportunity.
    Mr. Gowdy. I thank the gentleman of Michigan. The Chair 
will now recognize himself for an opening statement.
    National security and public safety are the preeminent 
functions of government. National security and public safety 
are not simply factors to be considered in the administration 
of some broader policy objective. National security and public 
safety are the ultimate policy objectives. The safety and 
security of our fellow citizens should be the driving force 
behind all decisions that we make as Representatives. And as 
Representatives, it would be incongruent for us to undertake 
any act, or fail to undertake an act, calculated to jeopardize 
the safety and security of those who sent us here in the first 
place.
    People do not employ us to represent them so we can take 
risks with their security. They send us here to put their 
security at the top of our constitutional to-do list. This 
country has a rich and long history of welcoming those fleeing 
persecution. We have a long and rich history of liberating 
those suffering under oppression. We are the most welcoming 
country in the world. And we are the most generous country in 
the world. And we help those in need both here and abroad. And 
we administer that aid in greater quantities than anyone else.
    Our country has welcomed over 3 million refugees since 
1975. We consistently provide aid to those in need. We provide 
protection for those who cannot protect themselves. And we 
provide a defense for those who are defenseless. Regrettably, 
the world we find ourselves in is imperfect and seemingly 
becoming more imperfect. It is because we are free and secure 
and an orderly society rooted in public safety that we have the 
liberty of being generous to other people.
    Rather than address the underlying pathology that results 
in displaced people, those in charge of our foreign policy seem 
more interested in treating the symptoms. There are refugees 
from the Middle East and Northern Africa because those regions 
are on fire and riddled with chaos. And our bright lines and 
policies of containment and smart power or whatever we call it 
today have failed. Terrorists took the lives of over 100 
innocent people in France and injured many more for no other 
reason than the fact that they could. They killed 100 because 
they couldn't kill 1,000. And their objective is evil for the 
sake of evil. It is murder for the sake of murder. It is wanton 
and willful violence, premeditated depravity, calculated to 
take as many innocent lives as possible.
    The acts of barbarism committed against the people of 
France are the latest in a long line of malevolent acts 
committed against innocents. And that line is not likely to be 
over. CIA Director Brennan said what happened in France was not 
a one-off event. We also know ISIS terrorists are intent on 
finding ways to attack America and her allies, including here. 
Director Brennan said ISIS has an external agenda they are 
determined to carry out. Another Administration official said I 
wouldn't put it past ISIS to infiltrate operatives among 
refugees. So that's a huge concern of ours. Those are not the 
words of some GOP presidential hopeful. Those are the words of 
our very intelligence officials who serve this Administration.
    The President has said he's too busy to debate the critical 
issue. And, unfortunately, what passes for debate in this 
political day and age is some absurd conclusion about widows 
and orphans. It is precisely that kind of hyper partisan 
conclusion designed to cut off debate, rather than discuss 
foreign policy, that has united this country in only this one 
fact, we have no idea what our foreign policy is in the Middle 
East.
    The people I represent are kind and generous and they are 
asking this Administration and this President one simple 
question, what assurance can you give us with respect to our 
public safety and national security. And so far, no one has 
been able to provide that assurance. On Monday, the President 
said the country would continue to accept Syrian refugees but 
only after subjecting them to rigorous screening and security 
checks. Those are wonderful words. But, at some point, you have 
to ask what does that mean. And the head of our own FBI said 
the concern in Syria, the lack of our footprint on the ground 
in Syria, that the databases won't have the information we 
need. So it's not that we don't have a process, we don't have 
any information. So you're talking about a country that's a 
failed state, that doesn't have any infrastructure. All the 
data sets, the police, the intel services you normally would go 
to and seek that information don't exist. That is not a 
Republican presidential hopeful. That is the head of the FBI.
    He also said we can only query against that which we've 
collected. And so if someone has never made a ripple in a pond 
in Syria, or I will add, any other place in a way that would 
get their identity or their interest reflected in our database, 
we can query our database until the cows come home, but nothing 
will show up because there is no record on that person.
    Lastly, he said I can't sit here and offer anybody an 
absolute assurance that there's no risk associated with this. 
So the question then becomes what amount of risk is acceptable? 
If our experts are telling us this is not a risk-free endeavor, 
and few things in life are, but someone is going to need to 
tell me and the people I work for what amount of risk is 
acceptable when you're talking about national security and 
public safety.
    And I'll say this in conclusion, the President says we're 
scared of widows and orphans. With all due respect to him, what 
I'm really afraid of is a foreign policy that creates more 
widows and orphans. So where maybe he ought to start, maybe he 
ought to start is a foreign policy in the Middle East, 
including Syria, where people can go back to their homelands, 
which is their preference, go back to their homelands. Maybe 
you ought to defeat that JV team that you thought you had 
contained. That would be the very best thing you could do to 
help people who aspire to a better life.
    And with that, I'll recognize the gentlelady from 
California.
    Ms. Lofgren. Thank you, Mr. Chairman. When we're elected to 
Congress, our first responsibility is to make sure that the 
security of the American people is attended to. That's number 
one, two, three, four. That's the first obligation. And I take 
it very seriously. That admonition has caused me, once again, 
to review the procedures and policies and laws relative to our 
refugee programs.
    Now, refugees from Syria and other places in the Middle 
East are arriving in waves, unscreened, at Europe's doorstep. 
As Mr. Hetfield has recalled, we were shocked to see the body 
of a 3 year-old child on the beach, of families trying to 
escape from ISIS, who is beheading people. But our process is 
different. We have an ocean between us and Europe and the 
Middle East. And that has allowed us to provide for a rather 
extensive process. And here's really what it is. I mean, in 
order to even be considered, the United Nations High Commission 
on Refugee refers you to our system for screening. And only a 
few people actually make that process to be screened.
    At that point, we have a Resettlement Support Center that 
does an interview. We do biographic checks. Then we use the 
CLASS system, the Consular Lookout and Support System, which 
queries data, it's classified, all of it is, but it includes 
the DEA, the FBI, Homeland Security, Immigration, Customs, on 
and on, the Marshal Service. Then we have for certain refugees, 
and that includes the Syrians, a Security Advisory Opinion, 
which is a positive SAO clearance from a number of U.S. law 
enforcement and intelligence agencies. Again, the participants 
are classified, but it is everybody.
    And then we have the interagency check which was new. 
Before 2008 and this Administration, we didn't have that. And, 
unfortunately, we admitted four Iraqi refugees who turned out 
to be terrorists under the Bush administration. We reviewed the 
process and changed that to avoid a repetition of that, as well 
as the biometric checks, and the next generation information 
system, along with IDENT, the automated biographic 
identification system, and the automated biographic 
identification system. That's all followed by in-person 
interviews and some post-interview efforts. Following that, 
there are additional checks for Syrians.
    So it's no small surprise that this process takes a couple 
of years for someone to pass. Now, I listened to the FBI 
director who we all respect. But I am mindful the FBI 
essentially has a veto. If there's somebody that we don't know 
who they are, they can't come in. That's our process. They 
can't come in. That's the current law. And that's as it should 
be. You know, that we would think querying what Assad thinks 
about a refugee, I don't really care what Assad thinks about a 
refugee. He thinks all the Sunnis are terrorists. And they're 
not.
    So let's put this into perspective. If I were a terrorist, 
would I say well, I'm going to go to a camp, hope that the U.N. 
will refer me to the system, go through this extensive process 
for 2 years and, honestly, because of Paris, this has now been 
further extended because everyone wants to make sure that every 
T is crossed and I is dotted, and in 2 or 3 years, if I'm 
lucky, I might make it as a refugee. I don't think so. I don't 
think so. We need to take a look at all of the systems that we 
have. Most of the terrorists, it looks like at this point, all 
of the terrorists in Paris were Europeans. They had European 
passports. They had Belgium and French passports. They could 
come to the United States very easily. And so I think we need 
to take a look at what processes we have in place to make sure 
that the country is safe.
    But it doesn't include being afraid of a 5 year-old. And I 
just want to say, Mr. Hetfield, it's important that you are 
here. I was listening to my colleague, Luis Gutierrez. And 
yesterday, a Syrian family, refugees, arrived in Chicago. And 
the non-profit group that was resettling them was the Jewish 
Community Center. That tells ISIS and the world that we're on 
the right side of history and they're on the wrong side of 
history. How do you recruit more terrorists when the United 
States stands up for what it is? And that's part of this 
equation. We need to win militarily but we also need to win it 
in a value fight. And we're not going to win that value fight 
by backing off from being free and being American. Thank you, 
Mr. Chairman.
    Mr. Gowdy. The gentlelady yields back. The Chair would now 
recognize the gentleman from Virginia, the Chairman of the full 
Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. From an immigration 
standpoint, perhaps the most essential lesson from the 9/11 
terrorist acts is that foreign nationals who want to do us harm 
will exploit all aspects of our generous immigration policy to 
do so, even if it takes months or years.
    Tragically, our allies in France learned that same lesson 
when over 120 people, including at least one American, were 
slaughtered by ISIS terrorists. And we know that at least one 
of the perpetrators registered as a refugee from Syria while in 
transit to Paris. Armed with that knowledge, today, we examine 
the Administration's plan to admit thousands of Syrians into 
the U.S. as refugees.
    During fiscal year 2015, the President admitted 1,682 
Syrian refugees to the U.S. Then in late September, the 
Administration announced that during this fiscal year, they 
plan to admit ``at least'' 10,000 more. And that number could 
go even higher as Secretary of State John Kerry stated, ``I 
underscore the `at least'--it is not a ceiling, it is a 
floor.''
    So since the overall ceiling for fiscal year 2016 refugee 
resettlement is 85,000, at a minimum, according to the 
Secretary of State, nearly 12 percent will be from a country 
with little infrastructure, in complete turmoil, into which 
thousands of radicalized foreign fighters have poured, parts of 
which the Islamic State controls, and in which we have no law 
enforcement presence. I understand that the Administration 
conducts security checks prior to admitting refugees. And 
according to the Administration, these checks are robust, 
especially with regard to the Syrian population. But are they 
enough? Can these checks ensure that the individuals admitted 
as refugees are not terrorists and will not commit terrorist 
attacks once in the United States.
    DHS Secretary Jeh Johnson told Congress that agencies 
involved in the vetting process are ``committed to doing the 
best we can and as deliberately as we can.'' Such a statement 
from the top U.S. Homeland Security official doesn't exactly 
instill confidence in the vetting system. Islamic radicals 
around the world are chanting ``death to America'' and mounting 
barbaric attacks on western targets. ISIS is specifically 
saying ``we will strike America at its center in Washington.''
    Top Administration security officials have told Congress 
that the refugee vetting process is not adequate. In fact, FBI 
Director James Comey told this Committee that while the vetting 
of refugees has improved, the reality is that with a conflict 
zone like Syria, where there is dramatically less information 
available to use during the vetting process, Director Comey 
could not ``offer anybody an absolute assurance that there's no 
risk associated with'' admitting Syrian nationals as refugees. 
And not only did his boss, Attorney General Lynch, not refute 
his statement, but she conceded that there are, in fact, 
challenges to the refugee vetting process during her testimony 
in this Committee on Tuesday.
    I wrote to the President last month asking why he continues 
to ignore the concerns of some of his top security officials. 
And I look forward to the witnesses' thoughts on such concerns 
today. Exactly who the individuals fleeing Syria are is also a 
question of immense concern. There is little doubt that members 
of the Islamic State and some of the foreign fighters who have 
streamed into Syria over the last few years are now some of the 
very individuals leaving the country.
    In September, the director of National Intelligence, James 
Clapper, noted, regarding the millions of individuals fleeing 
Syria, ``I don't, obviously, put it past the likes of ISIL to 
infiltrate operatives among these refugees. So that is a huge 
concern of ours.'' Media accounts note non-Syrians trying to 
pass themselves off as Syrians to try to get into European 
countries. And articles point out the booming fake 
identification document industry where a forged Syrian passport 
can be bought on the Turkish border for as little as $200. I 
know that the Administration is trying to implement the refugee 
law that Congress puts in place. But if implementation places 
Americans in danger, it is clear that Congress must take a look 
at the refugee provisions in the Immigration and Nationality 
Act to determine what changes should be made.
    Lastly, I would like to thank the witnesses for testifying 
here today. I know that some of you had to rearrange your 
schedules to make it here today and we appreciate your 
willingness to testify on this important topic. Mr. Chairman, 
thank you. I yield back.
    Mr. Gowdy. Thank you, Mr. Chairman. The Chair will 
recognize the gentleman from Idaho for 5 minutes of 
questioning.
    Mr. Labrador. Thank you, Mr. Chairman. And thank you to all 
the witnesses for appearing here today. I'm actually a 
proponent of our refugee program. So when I hear somebody like 
Mr. Hetfield talk about us as if we're going back to the 
1930's, I'm actually very offended. I think your testimony was 
completely out of line and out of place. Because most of us are 
here concerned about the safety and security of the United 
States, while at the same time we want to make sure that we can 
continue with this humanitarian program that has helped so many 
lives, so many people throughout the world. So it was very 
disappointing to hear your testimony.
    The mission, however, that we have with humanitarian 
concerns must not come at the cost of our national security. 
With recent testimony from both FBI Director James Comey and 
Attorney General Loretta Lynch that the Administration is not 
able to properly vet incoming refugees, Congress has the duty 
to act. We're not acting out of just plain fear based on a few 
Members of Congress just talking to each other. We're acting 
after we have had testimony after testimony after testimony 
from our top national security experts telling us that we have 
a problem with the vetting process. Ms. Richard, you referenced 
an extensive security screening that all refugees must undergo 
prior to admission. Do you think that the current vetting 
system is appropriate?
    Ms. Richard. Yes, I do. It's the toughest one for any 
traveler to the United States, Congressman.
    Mr. Labrador. It's the toughest one. But do you think it's 
sufficient for the current crises that we're in?
    Ms. Richard. Yes. And I'll tell you why because anybody we 
have any doubts about, anyone who we think might pose a threat 
to the United States in any possible way is not allowed to come 
in.
    Mr. Labrador. Do you agree with that, Mr. Rodriguez? Just 
yes or no.
    Mr. Rodriguez. I do. I do agree. I would like to elaborate.
    Mr. Labrador. How about you, Mr. Hetfield?
    Mr. Hetfield. I do agree.
    Mr. Labrador. Okay. So all of you, I assume, disagree with 
Director Comey's testimony that it is not sufficient when 
processing that population due to intelligence gaps?
    Ms. Richard. May I answer that question because I have 
given this some thought. You know, what Director Comey doesn't 
say is that it is normal for the U.S. Government to have no 
information about----
    Mr. Labrador. That's not true. He was here in this 
Committee and he testified there was a huge difference between 
the Syrian population and the Iraqi population because we had 
intelligence on the Iraqi population.
    Ms. Richard. And the reason for that is the Iraqi and 
Afghan programs were not like the normal refugee programs. We 
take people who have served for the U.S. military and have 
worked alongside our troops from Iraq. So there is a great deal 
of information about them available to the FBI. Normally, we 
would not have that.
    Mr. Labrador. No. Reclaiming my time. He testified, has 
testified again and again and again that we don't have 
sufficient vetting. I trust him, with all due respect, a lot 
more with my national security than I respect you. You have a 
mission which is to bring more refugees to the United States. 
And I respect that you have that work to do. But I'm concerned 
about the national security of my constituents. I'm concerned 
about the national security of the people that are in my 
district.
    We have two, as you know, two refugee centers in the State 
of Idaho. And we are concerned about what is going to happen in 
the State of Idaho if we don't do the proper vetting. So it's 
my responsibility to make sure that they are protected.
    Mr. Rodriguez, I want to briefly touch on the interviews 
conducted with potential refugees. How are the interview 
questions generated?
    Mr. Rodriguez. The interview questions are generated----
    Mr. Labrador. Your mike's not on.
    Mr. Rodriguez. I apologize. They are generated by, first of 
all, intensive briefing on country conditions, including 
classified information as I explained before. They are 
generated based on the information received in prior interviews 
of that same individual. They're also generated by the 
experience and training of that officer and what we have 
learned from other refugees.
    Mr. Labrador. How often are those questions altered?
    Mr. Rodriguez. Well, those questions are determined very 
carefully on a case-by-case basis. There's obviously constant 
communication among our officers.
    Mr. Labrador. What's the typical duration of a refugee 
interview?
    Mr. Rodriguez. I have observed them to be an hour. I've 
observed them to be 2 hours. It really depends on the nature of 
the case. The more complex, the more questions we have, the 
longer the interview will take. It takes as long as it needs to 
take.
    Mr. Labrador. Okay. Mr. Jones, in your opinion, if security 
protocols are not updated, what is the future of the U.S. 
Refugee Admission Program?
    Mr. Jones. Can you repeat the question? I couldn't hear the 
first part.
    Mr. Labrador. Yes. If security protocols are not updated, 
what is the future of the U.S. Refugee Admission Program?
    Mr. Jones. Well, look, I think the challenge we have, as I 
look at it, is the databases we have that are feeding into the 
refugee programs. We just have gaps in Syria. In the Iraq and 
Afghan cases I was involved in, we had large databases with 
biometric information, and names, based on people who were 
coming into prison systems and checkpoints. We don't have them 
here. So I do think this is a notable concern. It's a gap. We 
have gaps of information we generally haven't seen in many 
other cases.
    Mr. Labrador. Okay. Thank you very much.
    Mr. Gowdy. The gentleman yields back. The Chair will now 
recognize the gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. Mr. Rodriguez, we 
have heard that refugees for admission to the U.S. are subject 
to more rigorous screening than any other traveler or 
immigrant. And this screening is often conducted because 
refugees, in particular, may not often have the documents that 
we would have walking down the street. I mean they have, in 
some cases, fled for their lives with just the clothes on their 
back. They may not have boxes of documents. How do we proceed 
to establish identity in those cases? I mean it's not just 
Syria. If you've got, you know, we had the lost boys in Sudan. 
We have Congolese refugees. We have people who have fled with 
people chasing them and here they are. How do we go about 
identifying that piece?
    Mr. Rodriguez. And I think it's important. I appreciate, 
Congresswoman, your distinction between Syrians and others. 
Because the fact is actually most of the Syrians we see do come 
with documents that are authentic documents on the whole. What 
we do, though, is an extensive process of assessing, of mapping 
out family trees, aliases as the case might be, associations, 
other processes when we do have less documentation than is the 
norm.
    We have trained our personnel both, by the way, to 
recognize fraudulent documents when they are presented, but 
also to use the interview as an effective way of determining 
identity in those cases.
    Ms. Lofgren. In March, the Chairman of the Committee 
organized a congressional delegation to visit the Middle East. 
And one of the most interesting elements of that trip, and I 
thank the Chairman for organizing it, was the trip we took to 
the refugee camp on the Syrian border in Jordan. And we had an 
opportunity to meet a large number of refugees, I would say 
almost all of whom wanted to go home but their homes had been 
destroyed. And, by the way, they were very grateful to the 
United States for the efforts that we have made to provide 
support for them. That was very rewarding to hear the 
recognition that the United States has among the refugees for 
our efforts.
    Do we ever crowd source information? I mean those people 
had, that we met, I mean, some of them were computer science 
students, some of them were widows. I mean, you can find out a 
lot about somebody by doing not just an interview with them but 
crowd sourcing the information with everyone around them. Do we 
do that?
    Mr. Rodriguez. That's a great phrase, Congresswoman. We do 
so in two respects. One, we are always comparing and vetting 
what we hear from any one refugee or family of refugees, which 
is more typically what we're encountering, with what we're 
learning from other individuals from that town.
    In fact, as we see refugees, they tend to come from--at 
least the ones we've admitted so far, particular areas in 
Syria. And also, as part of the classified information that we 
receive, there can well be information that gives more detail 
in the manner that you've described, Congresswoman.
    Ms. Lofgren. So in terms of the role of the refugee core 
and the additional training that they receive, what 
supplementary steps are taken by officers with the Syrian 
refugees as compared to all other applicants?
    Mr. Rodriguez. The manner in which they are briefed on 
country conditions and regional conditions is more intensive 
than what we do for any other officers. So they have their 
basic training on protection law, their basic training on 
refugee law, and interviewing. They then have two series of 
intensive briefings. One is a general briefing on actually 
Syria, Iraq, and Iran. And then prior to deployment, there is 
an 8-day period when they receive intensive briefings, both of 
an unclassified and classified nature from a number of 
different sources, including consultations with security 
experts to really steep them in the specifics of the 
environment they're going to at the time that they are going to 
it. So there's an effort to ensure that that information is 
current.
    Once in the field, those individuals have a 10-day 
mentoring shadowing period before they are able to move off and 
interview on their own.
    Ms. Lofgren. I see that my time has expired. Mr. Chairman, 
I yield back.
    Mr. Gowdy. The gentlelady yields back. The Chair will now 
recognize the gentleman from Virginia.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Director Rodriguez, I would like to follow up on that line 
of questioning. If the interview process is so effective, why 
do we have 5 million overstays in the United States? Five 
million people who are lawfully admitted to the United States 
through the interview process and have overstayed their visas, 
violated the terms, violated the promises they made when they 
entered the United States?
    Mr. Rodriguez. Congressman, what I can----
    Ms. Lofgren. Use your mike.
    Mr. Rodriguez. I apologize.
    What I can speak to today is the actual refugee process. I 
mean, I think when we say----
    Mr. Goodlatte. But do you think refugees, where we've 
already talked about the greater difficulty of obtaining 
background information that you have a more highly accurate set 
of circumstances than you do for people who are applying to 
come into the United States for other types of visas?
    Mr. Rodriguez. I'm not sure I understood the question, 
Congressman.
    Mr. Goodlatte. Well, the question is very simple. If the 
interview process is so effective, and we interview the people 
who apply for a whole multitude of different types of visas, 
and they are coming from, in many instances, countries where we 
have much greater presence on the ground than we do in some 
refugee countries, and particularly that we don't have at all 
in Syria, why, nonetheless, would that good process that you 
described, do we still have 5 million people who are illegally 
present in the United States, who didn't come across the 
border; they entered the country legally after you said they 
could.
    Mr. Rodriguez. No. I do understand the question now. Sir 
what I can speak to is the refugee screening process, which as 
Assistant Secretary Richard mentioned, specifically as to 
Syrians is the most intensive process. It consists not just of 
the interview----
    Mr. Goodlatte. As the FBI Director noted, you have little 
inside Syria that you can contact. You can't access local or 
national databases there. You can't interview neighbors. You 
can't interview business associates. You can't interview other 
contacts with the people, because they are either in the 
country, and we can't get to them, or they are dispersed 
elsewhere around the world. Why do you think this interview 
process is so effective?
    Mr. Rodriguez. Because, again, it is based on extensive 
detailed mapping of family relationships, associations, 
credibility assessments based on prior documents. And, this is 
really critical, Congressman, it does not follow from anything 
that Director Comey may have said, that we are clearing a void. 
In fact, people have either----
    Mr. Goodlatte. Well, the Director--I'm paraphrasing, but he 
said you can query a database until the cows come home, but if 
the information isn't in the database, you are not going to 
find anything. And I think that is exactly--or he thinks----
    Mr. Rodriguez. Well, Congressman----
    Mr. Goodlatte [continuing]. Is the situation.
    Mr. Rodriguez. That is why we have placed people on 
heightened review, that is why there have been denials. That is 
why there have been holds.
    Mr. Goodlatte. Why not do what so many Members of Congress 
and other people have said on both sides of the aisle, by the 
way, and that is hit the pause button on this? You know, the 
situation in Syria has been going on for a few years now. It 
continues to deteriorate, and the situation in terms of 
gathering information about people, we have a problem with 
forged documents that are fooling the Europeans and may be 
fooling us as well.
    Why not simply delay this for a period of time until we 
make sure that the criteria that we've set forth in the 
legislation that we are putting forward today can be met?
    Mr. Rodriguez. And, Congressman, I would say because the 
process as currently constituted and currently re-sourced, 
because your question is, is the best we can do good enough? 
And the fact is that it is the most intensive process. It has 
resulted in denials and holds. It is a redundant, rigorous 
process through which we put these individuals.
    Mr. Goodlatte. Mr. Krikorian, does the U.S. Government have 
any credible way of distinguishing between refugees from Syria 
and individuals who are posing as Syrian refugees?
    Mr. Krikorian. They can try, and I have no doubt that USCIS 
officials, State Department, FBI, and the rest are doing their 
best to distinguish between people pretending to be Syrians and 
people who aren't. But there's a limit to how effective that 
can be, since there's an extreme paucity of data. So sometimes, 
I have no doubt they will, in fact, smoke out people who are 
lying or cheating. I'm sure it happens all the time. But as Ms. 
Strack said just last month to the Senate, more than 90 percent 
of Syrian refugee applicants are being approved, and that that 
might go down a little bit as those cases that are in limbo are 
formally decided. But the average worldwide is 80 percent. So 
how stringent, really, can a vetting process be when more than 
90 percent of the people are being approved?
    Mr. Goodlatte. Thank you.
    Mr. Chairman, my time has expired.
    Mr. Gowdy. Well, thank you, Mr. Chairman.
    The Chair will now recognize Ms. Lofgren for a brief 
unanimous consent request.
    Ms. Lofgren. Thank you, Mr. Chairman. I ask unanimous 
consent to submit to the record of this hearing 37 statements, 
including from the Christian Reform Church, the Lutheran 
Immigration Services, the Southeast Asian Resource Center, and 
the Disciples of Christ.*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Subcommittee, and can also be accessed 
at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104197.
    Mr. Gowdy. Without objection.
    The Chair will now recognize the Ranking Member of the full 
Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy.
    My questions seem to be directed to Mark Hetfield, and the 
first one is--and I respect the important testimony of the 
other four witnesses, but I'm trying to see how much difference 
there is between the European refugee model and the U.S. 
refugee resettlement program. Is there much of a distinction 
there, sir?
    Mr. Hetfield. There is a very significant distinction, 
which is why it is so surprising to me that the attacks in 
Paris have resulted in even more intense scrutiny of the 
refugee resettlement program.
    The refugees who arrive in Europe are not vetted in 
advance. They are asylum seekers. Their vetting does not begin 
until after they touch land in Greece or in Europe. In the 
United States, as Director Rodriguez testified and as you've 
heard over and over again, they are vetted--refugee applicants 
are vetted right-side up, upside down, and sideways, every 
which way you can possibly imagine, before they are admitted to 
the United States. And then the process continues after they 
arrive. They have to apply for adjustment, after a year in the 
United States. They continue to be under close watch. The risk 
in the refugee admissions program of admitting terrorists is 
very, very low.
    Mr. Conyers. You know, we're considering H.R. 4038 on the 
floor today, and conservatives around here argue the bill does 
nothing more than add a certification process that would ensure 
no terrorist element enter the country through resettlement.
    Do you think that's the whole story behind this?
    Mr. Hetfield. Well, it is a very short bill, and it does, 
technically, add nothing but a certification process. But that 
process would totally cripple a system without making it more 
effective.
    Refugees are already thoroughly vetted, as we've testified 
prior to arrival. And having three different, high-ranking 
officials certify each and every refugee case is a guarantee 
that the system will come to a screeching halt. It already 
moves so slowly. The refugee resettlement program is no longer 
a rescue program. It saves lives, but it saves lives very, very 
slowly. That would bring it to an end.
    Mr. Conyers. Mr. Hetfield, you are with the Hebrew 
Immigrant Aid Society. Now, are you concerned that refugees we 
would be accepting from Syria and Iraq would pose a specific 
threat to the Jewish community in the United States?
    Mr. Hetfield. We are, as everyone else is, very concerned 
about screening people out who want to do us harm, especially 
those who have a particular ax to grind against the Jewish 
community. But, again, these refugees are thoroughly vetted. 
And what worries us much, much more, because we feel the 
vetting is being done. But what we're also seeing right now is 
xenophobia, islamophobia driving a further wedge between 
Muslims and the rest the world. And we're afraid that can do 
far more damage to Muslim-Jewish relations, to who we are as a 
country, to our security as a country, and make us even more 
vulnerable to attack. Because we've basically said Syrian 
Muslims are not welcome here; we do not trust them.
    Mr. Conyers. And my final question to you, sir, is for you 
to try to explain why our world with ISIS and other terrorist 
groups is different because they do not comprise enemy states 
or governments. Shouldn't the safety and protection of our 
people be our first concern, even if it means not allowing some 
refugees into the United States?
    Mr. Hetfield. It absolutely should be our paramount concern 
to keep the United States safe and secure. And I can say with 
great confidence that my colleagues in the Department of 
Homeland Security are doing that to a fault. That is their 
mission. And they vet every refugee to make us safe. And I 
really can't imagine what additional protocols they could 
possibly install to make us any safer.
    No terrorist in his right mind would use the refugee 
program as a way to enter the United States. They may find 
other channels. It's not going to be through the refugee 
program. It's too intrusive, it's too invasive, it's too 
thorough in the security checks that it does.
    Mr. Conyers. Secretary Richard, do you have anything to add 
to that comment?
    Ms. Richard. The people who we are bringing have gone 
through this process, but they're also referred to us in the 
first place, because the UNHCR knows the type, the profile, of 
refugee that we want to help. And so we are looking at people 
who have been tortured, who are burn victims from barrel bombs, 
people who are widows and children, also the elderly, families 
that have been ripped apart as members have been murdered in 
front of their eyes.
    So of course, every single one of us feels that the first 
priority is the safety of the American people. And if we can't 
provide for that, we would shut down the program. But we 
believe strongly that by the time a refugee is brought here, we 
are bringing some of the most vulnerable people, giving them a 
second chance at life, and we have screened out anyone, about 
whom we have any question--they weren't even probably referred 
to us in the first place, which may be why we have a higher 
acceptance rate, and I think that the proof is in the success 
of the program and communities all across the United States.
    So thank you for the opportunity to provide some 
information. And we also would be happy, if given the 
opportunity, to explain more about the nuts and bolts of the 
process. We think it can withstand scrutiny. The Chair and the 
Ranking Member of this Subcommittee have spent a lot of time on 
this already this year, but we're happy to meet with other 
members to go into the point that, for example, the FBI 
holdings would only tell you a limited amount of information 
about refugees.
    For example, if a refugee had ever committed a crime in the 
United States, the FBI could tell you that. But most refugees 
have never been to the United States before. So that's why we 
have to use many more databases and many more techniques and 
many more approaches to get the full story, make sure their 
story holds up, and if it doesn't hold up, if there's any 
question, they are not included in the program. Thank you.
    Mr. Conyers. Thank you.
    Thank you, Chairman Gowdy.
    Mr. Gowdy. The gentleman yields back.
    The Chair would now recognize the gentleman from Texas, 
Chairman Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, I would like to single out Mr. Krikorian and 
thank him for his excellent testimony. I honesty don't know how 
anyone could disagree with one word. But before I get to a 
question for Ms. Richard, Mr. Chairman, I just have to tell you 
how it seems to me right now, and that is that the President of 
the United States says he wants to protect the security of the 
American people. We have a bill on the House floor where the 
FBI has to certify that a Syrian refugee is not a threat to the 
United States. And yet, the President of the United States is 
threatening to veto a bill that tries to protect the security 
of the American people.
    I have no rational explanation for the President's 
threatened veto. It is simply astounding to me that a President 
of the United States would want to veto a bill that tries to 
protect the security of Americans. I just don't get it.
    But, Ms. Richard, my question to you is this: This year we 
have admitted 1,700 refugees from Syria already, just in the 
last several months. How many of those 1,700 refugees have been 
arrested for committing a crime?
    Ms. Richard. So we've brought 1,700 in the last fiscal 
year, which ended September 30.
    Mr. Smith. Right.
    Ms. Richard. Two thousand since the start of the crisis. As 
far as I know, none have been arrested unless you have 
contradictory information.
    Mr. Smith. And you track all the refugees from Syria, 
including the 1,700, so you would know?
    Ms. Richard. No, we do not track them after the first 3 
months in the United States.
    Mr. Smith. Then how do you know whether they have been 
arrested.
    Ms. Richard. I rely on the law enforcement agencies to tell 
us.
    Mr. Smith. Okay. And so far as you know, none of the 1,700 
have been arrested?
    Ms. Richard. That's right. I haven't heard of any.
    Mr. Smith. Okay. As far as the stopping of the tracking 
after 3 months, are you going to stop tracking the 10,000 
proposed to be admitted next year after 3 months and the 
20,000, perhaps, the year after? Are you going to stop tracking 
those individuals as well?
    Ms. Richard. Once refugees are in the United States, after 
a year of being here, they become legal, permanent residents. 
And after 5 years, they are allowed to----
    Mr. Smith. I understand that. I am talking about----
    Ms. Richard. And because of that----
    Mr. Smith [continuing]. The early period.
    Ms. Richard. They are treated pretty much like ordinary 
Americans, and they are not tracked.
    Mr. Smith. Okay. Right. But what I am saying is, are they 
treated any differently than any other refugees? Do you 
consider them to be any more of a threat than other refugees or 
not?
    Ms. Richard. Well, they are not treated differently than 
other refugees.
    Mr. Smith. Okay. I think most people would consider to be 
Syrian refugees about whom we already----
    Ms. Richard. I think Syrians are less of a threat, 
actually, because they have fled their country. They voted with 
their feet.
    Mr. Smith. Let me stop you there. No. Let me stop you there 
real quick. You say Syrians are less of a threat, even though 
we've had testimony from the FBI Director that of all of the 
cohorts of refugees, including Iraqi refugees, we have less 
information about the Syrian refugees than others?
    I mean, the FBI director says he regrets he doesn't have 
more data about the Syrian refugees, and he has real concerns, 
and he thinks it's risky. Apparently, the Administration 
disagrees with the FBI director. But you're saying, again, I 
just want to make sure, that Syrian refugees are less risky 
than other refugees?
    Ms. Richard. Well, my point is that Syrian refugees have 
been outside their country, and so we know what they have been 
up to. And there's a record of the time they spend outside 
their country.
    Mr. Smith. They may not have a record of terrorism. They 
may be would-be terrorists; they may be terrorists in training. 
Terrorist organizations have already said they are going to use 
the refugee program to try to infiltrate the United States. And 
you say you're less worried about Syrian refugees than other 
refugees?
    Ms. Richard. I am very worried about terrorists.
    Mr. Smith. I'm sorry?
    Ms. Richard. I am very worried about terrorists. I think we 
should focus on terrorists. I think we should prevent 
terrorists from coming to the United States.
    Mr. Smith. And don't you think Syrian refugees might some 
day become terrorists?
    Ms. Richard. I think the odds of a refugee being a 
terrorist are very, very small. But that doesn't stop us from 
focusing our program to make sure nobody comes in who might be 
a terrorist.
    Mr. Smith. Right. I appreciate you're trying to focus the 
program that way. But we've heard from law enforcement 
officials that you really don't have the data you need to make 
that determination. But let me go on to----
    Ms. Richard. What the FBI has said is that they don't have 
a lot of data from inside Syria, which makes sense, because the 
FBI has not operated there.
    Mr. Smith. Exactly. So I don't think there's any way for 
you to----
    Ms. Richard. And it's also normal for us, with most 
refugees, not to have data. The exception is Iraqis and 
Afghans.
    Mr. Smith. Right. But if you don't have the data on Syrian 
refugees, then it seems to me to be very difficult for you to 
give the American people the assurance that they are not going 
to commit terrorist acts.
    Ms. Richard. We do have lots of information about Syrian 
information. The FBI does not have a big amount of holdings on 
Syrians based on U.S. presence in Syria.
    Mr. Smith. Right. The FBI----
    Ms. Richard. We have a lot of information about Syrian 
refugees. And Leon's program, he should probably talk about 
this more than I should, is it collects the information and 
does a fantastic job. I've sat through those interviews.
    Mr. Smith. Right.
    Ms. Richard. Instead of doing scores of visa applicants in 
a day, they take their time, and they do about three or four 
refugee applicants.
    Mr. Smith. Well, all I can say is every law enforcement 
official, and I've heard a couple testify before Committees in 
the last 4 weeks, have disagreed with you. They say they have 
less data, less information about the Syrian refugees. If you 
are an outlier on that, you are entitled to your opinion. I'm 
just saying what other law enforcement officials have 
testified.
    Last question is this, if the citizens of a State or a city 
do not want to have Syrian refugees resettled within their 
jurisdictions, State or city, is the State Department, is the 
Administration going to force them to take those refugees?
    Ms. Richard. Well, there's a legal answer, and then there's 
a reality answer. Legal answer is----
    Mr. Smith. Well, let's go----
    Ms. Richard [continuing]. This is a Federal Government 
program, and so the Federal Government has the right to 
resettle refugees all across America as we do in 180 countries, 
all types of cities and towns, right.
    Mr. Smith. I understand that. What's the reality answer?
    Ms. Richard. The reality answer is this program only 
functions only if we have the support of the American people, 
very much at the level of communities and societies and towns 
to come forward and help these refugees, help them get jobs, 
and help them move on.
    Mr. Smith. I appreciate that. So you're saying the 
Administration, while it might assert that it has a legal 
right, is not going to force the resettlement of refugees in 
locales----
    Ms. Richard. Well, that's for the President to decide----
    Mr. Smith. Let me finish.
    Ms. Richard [continuing]. Our recommendation would be not 
to resettle anybody in a hostile environment.
    Mr. Smith. Let me finish my statement, please. Let me 
repeat that. You are saying the Administration, while they have 
the legal right to force resettlement, is not going to exercise 
that legal right if the local communities oppose the settlement 
of the refugees?
    Ms. Richard. No, I haven't said that, Congressman, because 
it's up to the President to decide that. But I certainly would 
not want to resettle anybody in a hostile community. Now, I 
don't think we have many of those in the United States.
    Mr. Smith. Okay. And I wouldn't refer to them as hostile 
communities. They are acting in what they consider to be their 
best interests in protecting their own people.
    Thank you, Mr. Chairman. My time is up.
    Mr. Gowdy. The gentleman yields back.
    The Chair would now recognize the gentlelady from Texas.
    And I would just say, in light of the fact that votes are 
coming in 15 minutes, I am going to try to do a better job of 
limiting folks to 5 minutes, including myself.
    Ms. Jackson Lee. Thank you, Mr. Chairman, and to all the 
witnesses who have come. Thank you to the Ranking Member for 
her valiant effort on trying to strike a compromise with the 
bill that is being debated on the floor. I was delayed because 
I was speaking at the Rules Committee and trying to find--
excuse me, on the rules on the floor, trying to find a reason 
for us moving forward with H.R. 4038.
    But I do want to thank the witnesses, so let me be very, 
very succinct, if I might.
    Let me, first of all, ask to put the U.S. refugee admission 
program overseas process diagram into the record.
    I ask unanimous consent, Mr. Chairman?
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                       __________
    Ms. Jackson Lee. If I can hold this up. Probably it's 
difficult to see the maze of which it is.
    So let me say that the inquiry that is being made through 
this legislation and through this hearing is a legitimate one. 
Having started on the Homeland Security Committee, as the 
recovery at 9/11 was still occurring, having been to Ground 
Zero and seeing the angst and feeling that deeply imbedded 
pain, there is no memory that sears the minds of Americans as 
much as 9/11, although we have experienced much, such as the 
bombing of Pearl Harbor that resulted in the internment of 
Japanese Americans. I'm not sure whether at that time it made 
the Nation safer.
    So this process troubles me, and I'm going to quickly ask 
Ms. Richard, Mr. Rodriguez, a scenario. I understand that 
approximately 23,000 individuals are referred by the United 
Nations from Syria. I don't know if they include Iraq. Out of 
that in the last year you took about 7,000 to interview, and 
about 2,000 came forward in terms of the process. The process 
lasts 18 to 24 months. Is that correct, Ms. Richard, about 18 
to 24 months?
    Ms. Richard. Yes, that's correct.
    Ms. Jackson Lee. And they include the people who are 
outside of Syria, who are either in the camps, and not that you 
directly go into the bowels of Syria and pull somebody out. Is 
that correct?
    Ms. Richard. We do not operate inside Syria. This is only 
for people who have fled outside of Syria.
    Ms. Jackson Lee. And the individuals' prioritization, are 
those who are women and children, families, 2 percent of them 
happen to be unmarried men. Is that correct?
    Ms. Richard. Of the ones we have brought to the United 
States, only 2 percent are unmarried single men traveling 
without family. So most are families, women and children, and 
multiple generations.
    Ms. Jackson Lee. Mr. Rodriguez, have you read H.R. 4038, by 
any chance?
    Mr. Rodriguez. As it happens, I have, yes.
    Ms. Jackson Lee. Very good. And good. It's not one of our 
tall ones. It's a limited one.
    Mr. Rodriguez. It was within my attention span, 
Congresswoman.
    Ms. Jackson Lee. It has not had any hearings. It has not 
had a hearing before the Homeland Security Committee, which has 
the basic jurisdiction of domestic security. I haven't had a 
hearing in front of the Crime Subcommittee of this Committee, 
though it deals with refugees, but it also deals with issues 
dealing with terrorism of sorts.
    But you are the tactical man, if you will, in this process. 
As you look at it, do you read it as I read it, that the 
elements of certification, or the persons engaged in 
certification, must certify every single person, Syrian or 
Iraqi? Do you read it in that terminology?
    Mr. Rodriguez. I would not dare right now to opine or 
interpret other than to say that I am aware of it.
    Ms. Jackson Lee. But you sense that is----
    Mr. Rodriguez. I will talk about what we do right now and 
what we're planning to do.
    Ms. Jackson Lee. Okay. Well, let me do this. Maybe somebody 
else wants to opine. Because I think you can opine, and I need 
you to understand and to be understood. It says that everyone 
in this category has to certify each refugee. Does it not? Can 
you say that?
    Mr. Rodriguez. Yes. I don't think our far basic position, 
as the President stated last night, is that the process does--
4038 doesn't add anything to the--it doesn't add anything to 
the already rigorous process in which we engage.
    Ms. Jackson Lee. Okay. Well, let me go back to Ms. Richard, 
then. And as I read this, each person would have to be 
independently certified. So if you are a 5-year-old Syrian 
girl, you would have to be certified by the long list of 
persons that already do it collectively? Is that not accurate?
    Ms. Richard. Well, I don't know. I haven't spent time 
looking at the bill, since it's brand new. But we do have 
interviews for cases, which are either individuals or families. 
The interviews that Leon Rodriguez's USCIS carries out are 
meeting with the whole family, and then----
    Ms. Jackson Lee. Let me get, Mr.----
    Mr. Gowdy. Well, the gentlelady's time has expired, and I 
really do want to give every member a chance. And votes are 
imminent, so I'm going to have to----
    Ms. Jackson Lee. Thank you. I yield back.
    Mr. Gowdy. I thank the gentlelady.
    The Chair will now recognize the gentleman from Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses. 
And I direct my first question to Mr. Rodriguez. And that is, 
when you do this extensive vetting process, do you take into 
account the religion of the applicants?
    Mr. Rodriguez. We do not, except as that being a possible--
in many cases it is, a basis of persecution. It is one of the 
categories of persecution. But we do not disqualify anybody 
because of their faith.
    Mr. King. Do you take into account--do you ask them, what 
is your religion?
    Mr. Rodriguez. Again, if that is part of the basis for 
their persecution, then we do inquire into that, sir.
    Mr. King. And even though the law requires whether it is or 
isn't the basis for that, you are required to take that into 
account, religion.
    Then can you explain to me the data out here and what we're 
seeing happen in the real world. And by the way, I just back 
from there a week ago. I was in the Kurdish region and over to 
the frontlines, as close as I can get to ISIS and into a 
refugee camp and up to Turkey, and on over into Hungary and 
Croatia and Serbia and then over to Sweden to see kind of the 
end result. But I asked in Turkey, take me to the refugee camps 
where I can talk to persecuted Christians, and they couldn't do 
that. And I said in Kurdistan, take me to the refugee camps 
where I can talk to persecuted Christians. They couldn't do 
that either. And the reason for that is the Christians are 
being taken into the homes that exist in the area and being 
taken care of in that fashion. It almost turns out to be 
exclusively Muslims within the camps, as near as I could 
determine. Now, I don't have data. I just have the answers that 
I got to the questions I asked, some of them from State, I 
might add.
    And so can you name for me or identify for me a suicidal 
terrorist that was not a Muslim?
    Mr. Rodriguez. I'm not even going to try to answer that 
question, Congressman. What I can talk about, Congressman, here 
today is----
    Mr. King. Well, why can't you answer that question? Either 
you can say, I can or I can't. That's a pretty simple----
    Ms. Jackson Lee. Would the gentleman yield?
    Mr. King. No, I wouldn't.
    I'd ask the gentleman if you would also prefer to simply 
say that the Administration policy is not to utter these words; 
we have to walk around this subject rather than directly speak 
to it, then I'm willing to accept that answer too.
    Mr. Rodriguez. What I can say is that we do our job, and 
that if terrorists are attempting to gain admission to the 
United States, then we do our job to prevent them from doing 
so.
    Mr. King. But you are vetting them.
    Mr. Rodriguez. That's what the American people are asking 
of me.
    Mr. King. You're telling me that you're doing a thorough 
vetting process, but you're unable to tell me that you 
specifically ask them what their religion is. And if you don't 
specifically ask them, then neither are you able to quantify 
the risk to the American society. But I want to move away from 
that a little bit. I think my point is made there.
    And I would like to make this point, that we are operating 
here on completely the wrong premise. We are operating on the 
idea that we can vet potential terrorists, no matter how much 
professionalism that we can bring here, and examine them up, 
down, sideways, as the gentleman testified, and that they come 
into America, then, and we're going to be okay if we do a good 
job of vetting the refugees that we would allow into America.
    And yet, when I look at the situations here, for example, 
here's the Daily Mail article, here's the headline: ``America's 
enemy's within; how nearly 70 have been arrested in America 
over ISIS plots in the last 18 months, including refugees who 
have been given safe haven turned out to be bringing terror 
against Americans.'' Nearly 70. That number is actually 66.
    And so I understand that we can't be perfect with this, but 
some of these people that came in as terrorists were vetted. I 
don't think they were terrorists when they got here. They 
became terrorists after they got here. They became radicalized. 
Some were and got through. Some were radicalized.
    And so when I look at this, I think, we're talking about a 
huge haystack of humanity. And that hay is benign, relatively 
speaking, but in that haystack are the needles called 
terrorists. And the proposal that's coming from the 
Administration is that we are so professional that we can 
examine all of that hay, and we can identify any of the needles 
in it, terrorists; we can sort the needles out of the haystack 
and somehow prevent them from coming into America. We're not 
putting them down to GTMO, where they belong, but let them come 
into America, and then this haystack would be benign, and it 
could become one of our culture and society, then it will 
simulate into the broader American civilization. That's nuts to 
think that.
    And, furthermore, even if it wasn't, then I would say to 
you, the benign hay that now you've envisioned, that we have 
already purified and cleaned the needles out of, now that that 
hay never ever morphs into a needle, a terrorist. But we know, 
even by this article, that people are radicalized in this 
country. They attack us. We've got multiple attacks in America.
    When I look at the map of Europe and the dots of the hot 
spots where they have been attacked in nearly every country in 
Western Europe, and it's proportional to the populations that 
they've brought in from the Middle East and North Africa. Now, 
we cannot stick our heads in the sand and say that somehow that 
we're not bringing this upon ourselves. We are watching this. 
We are slow-motion cultural suicide in American. Slow motion, a 
generation behind Europe. And I've traveled all over there. And 
I've walked down through the no-go zones, and country after 
country in Europe to see it. And I sat down and talked to the 
people that are there. And I'm watching them. They feel so 
guilty about political correctness that they're willing to 
accept about any kind of violence brought into their country 
because they feel guilty about this.
    Mr. Gowdy. The gentleman is out of time.
    Mr. King. And I will conclude for the Chairman, that if we 
are going to save ourselves, we have to also intervene and 
provide a safe zone, international safe zone, for the 
persecuted religions, which are the Syrian Christians and the 
Chaldean Christians. Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize the gentleman from Illinois, 
Mr. Gutierrez.
    Mr. Gutierrez. Thank you so very much, Mr. Chairman. You 
know, we are all shocked and horrified and deeply saddened by 
the news coming from Paris. As a member of the Intelligence 
Committee, I know there is much to fear both for our allies and 
for us. But in light of the attacks on our ally friends last 
Friday, I urge my colleagues to keep a cool head and not to 
react exactly the way ISIS and other terrorists hope we do, 
with fear, with chaos, and with lashing out.
    But sadly, that's what we have seen. Republican governors 
and elected officials and candidates and media figures do. I've 
been here long enough to do know a thing or two about 
opportunism. Maybe it's just too much to resist when you've got 
15 guys and a lady running for President on the Republican 
side. Politicians, pundits, and celebrities would be attempted 
to say whatever they can to get in front of the news cameras 
and have it pointed at them.
    The governor of Illinois, my home State, could not resist 
saying that our State was closed to Syrians fleeing the terror 
of ISIS and the Assad regime. He said there was no place in 
Illinois for women, children, elderly, Muslims fleeing the 
Assad regime and the ISIS terrorism, the murder, the rape, the 
selling--there's no place for those children and for those 
women.
    Luckily, just as he said that to show the opportunism, a 
wonderful Syrian family arrived in Chicago just 2 days ago and 
found a safe place. That is the message that destroys the 
hatred of ISIS, not the reel that they are going to have of 
people saying, we don't like Muslims; we can't trust Muslims; 
Muslims are somehow going to create a cultural system in 
America that's going to destroy us.
    Every community of people that have come here has 
strengthened this Nation. And I just have to say that when you 
use fear, when you use fear--and I do remember, Mr. Chairman, 
last year we were here, and the last fear that I remember 
talking about was when the kid showed up--remember when the kid 
showed up, the refugee showed up from Central America? We had 
doctors, medical doctors--I don't know what medical school--
saying that those children were bringing Ebola to the United 
States of America. They went to Africa, came back, crossed the 
border, came back with Ebola. A year later, where is it at? 
Remember? I remember governors saying that they were going to 
close down their States.
    Every time we hear this, it's about they're coming because 
they are murders, they are rapists; they're coming because they 
are drug dealers. It's fear, fear, and fear. And you know what 
the best tradition of America is, when people have stood up 
against fearmongerers who traffic in hatred and bigotry and 
prejudice. And that's what I sadly believe is happening now 
with Syrian Muslims fleeing.
    Oh, if they were only all Christians, some would say, then 
it would be fine. You know what that kind of reminds me of, it 
kind of reminds me of the Irish, when they came here. They 
said, if they were only White Anglo-Saxon Protestants, but no, 
they had an allegiance to the Pope out in Rome, so therefore, 
they were suspicious people. We've heard these arguments time 
and time again in America, and America has always responded to 
them correctly by welcoming those to our Nation regardless of 
the faith that they hold so that they could celebrate that 
faith, so that they could live in that faith freely in America, 
because we don't have those kinds of threats here.
    Look, we used fear during World War II. Boy, did we regret 
it, the internment camps of the Japanese, a stain and a blemish 
on America. We used fear and we used bigotry to say that those 
who would flee the prosecution and the persecution and the 
deaths of the Nazis and the Holocaust, we say no, there's no 
room in America for you. There's room, certainly, in America.
    I understand that there is a terrorist system out there 
that wants to hurt us. I understand that. But I also understand 
that there are tens of thousands of American men and women 
patriots that are out there protecting the homeland every day, 
and they are not working 100 percent; they are working 200 
percent, and they're keeping us safe. And that we are taking 
all of those measures, and they don't willy-nilly just let 
anybody go through a screening process. No, those are Americans 
watching out for Americans, and I think we impugn their 
integrity and we impugn who they are and their patriotism to 
this country.
    So I would just like to say, look, we made the mistake 
before. Let's not make it again. Let us have a system--if you 
said, all we want to do is lose--we want to add an extra layer, 
that would be good, but that's not what we're doing. They are 
in the camp, they are getting vetted. We should welcome them to 
America. We shouldn't fall into the trap of ISIS, I can see the 
reel now. Thank you so much.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize the gentleman from Colorado, 
Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman.
    Director Rodriguez, I want to just tell you about my 
experience. I was the District Attorney in Northern Colorado, 
in Greeley, Colorado. We had between 1,500 and 2,000 Somali 
refugees, mostly Muslim, if not all Muslim, come to Greeley. 
There were some hiccups in the process, but for the most part, 
they were welcomed and have lived there happily in a community 
that is open to them.
    How many refugees are there around the world that are in a 
position to come to this country? How many potential 
individuals are there?
    Mr. Rodriguez. Well, we have our admission target. My 
understanding generally, is that there are about 19 million 
refugees worldwide.
    Mr. Buck. Did you say 19 or 9?
    Mr. Rodriguez. Nineteen million.
    Mr. Buck. Nineteen million, refugees worldwide.
    Mr. Rodriguez. And Assistant Secretary Richard can correct 
me if my number is off, but the number is the largest it has 
ever been.
    Mr. Buck. Okay. So we have 19 million. That's what I was 
wondering. So 19 million refugees. How many of those can come 
to the country? What is our number that we would allow into the 
country?
    Mr. Rodriguez. Currently, every year we establish a target. 
Our target for this fiscal year is 85,000.
    Mr. Buck. Okay. So 85,000, a drop in the bucket of those 19 
million. Why would the Administration object to a pause on 
Syrian refugees when we have 19 million potential refugees that 
we could take from other countries where we have been 
successful in integrating those refugees, for the most part, 
into communities and----
    Mr. Rodriguez. Because a quarter of all of those refugees 
worldwide are, in fact, Syrian. The potential for an even 
greater number exists with the continued activity of ISIL.
    Mr. Buck. So let's take a quarter. So we have 75 percent of 
19 million people, and that, again, 85,000, we could certainly 
find 85,000 from that 75 percent. Why are we so interested in 
taking Syrian refugees? This isn't a matter of religion, as my 
colleague from Illinois pointed out. There have to be various 
religions in that 75 percent.
    Mr. Rodriguez. The situation in Syria is devastating to the 
extent that there is no reasonable prospect of return to that 
country for----
    Mr. Buck. And taking 85,000 Syrians wouldn't do anything to 
change that devastation either. Would it?
    Mr. Rodriguez. It would. It would start us on the road. 
It's something that we are doing alongside our European allies. 
The Germans, for example, are expecting 1.5 million people.
    Mr. Buck. I want to move on. I understand. My point is 
simple, there are plenty of other people that we could take in, 
hit the pause button, and do some research on this.
    Director Rodriguez, Mr. Hetfield said that he was surprised 
that attacks in Paris has resulted in more scrutiny for 
America's refugee program. Are you surprised as an American 
that there is fear in this country over relocating Syrians into 
this country?
    Mr. Rodriguez. Congressman, there are enemies of the United 
States. Those enemies of the United States are in Syria.
    Mr. Buck. I was just asking if you are surprised.
    Mr. Rodriguez. My point is I know that the United States 
has enemies, whether they are in Europe, whether they are in 
Syria, whether they are----
    Mr. Buck. Your point doesn't answer my question. My 
question is, are you surprised that Americans are fearful over 
what happened in Paris?
    Mr. Rodriguez. I am neither surprised by the fact that 
there are fearful Americans, and I'm not surprised by that, nor 
am I surprised by the fact that many Americans want us to be a 
welcoming country to those in fact, who are victims of conflict 
and war.
    Mr. Buck. Okay. And so let me tell you one of the reasons 
why Americans are distrustful at this point. We have a 
President who, after the murder of an ambassador in Benghazi 
and the murder of three heroes in Benghazi, four people total, 
told the American people that the attack was the result of a 
video. We have a Secretary of State who immediately identified 
that it was not the result of a video, that it was the result 
of a well-planned attack.
    And then the Administration paraded out one official after 
another to lie to the American public, and the American public 
has very little faith in this Administration when they assure 
the American public that somehow they're able to determine that 
Syrians that come to this country are going to be trustworthy 
and we will be safe. And it is a result of this 
Administration's lack of credibility that has caused the fear 
and panic among many of the Americans in this country.
    I yield back my time.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize Mr. Trott.
    Mr. Trott. Thank you, Mr. Chairman.
    Director Rodriguez, you know, kind of following up on Mr. 
Buck's questions. Do you think Americans have a right to be 
fearful today in light of what happened in Paris and the 
threats against New York and Washington?
    Mr. Rodriguez. Sure. I mean, there are threats to the 
United States. There's no question about that, Congressman.
    Mr. Trott. And do you think--you know, I'm going home this 
afternoon. And so what should I tell my constituents that we're 
doing about their fears?
    Mr. Rodriguez. What we are doing is engaging in the--and I 
assume we're talking about Syrian refugees, because there's a 
whole lot more that we are doing to protect the United States 
that goes beyond just what we're doing to scrutinize the 10,000 
or so people----
    Mr. Trott. Your assumption is correct.
    Mr. Rodriguez [continuing]. Who may be coming.
    What I would tell them is this is the most rigorous process 
in the history of refugee screening. That, in fact, we have 
denied people admission. In fact, there are hundreds of people 
on hold because either their stories lacked credibility or 
because there was derogatory information about them. So the 
work is being done.
    Mr. Trott. But can you sort of understand the complete lack 
of confidence that most of my constituents, whether--let me 
continue, sir.
    Mr. Rodriguez. Yeah.
    Mr. Trott [continuing]. Whether the veterans over the VA, 
seniors over the future of the Social Security, families over 
the affordability of their health insurance premiums, as I go 
back to Michigan, can you sort of understand why people have 
apprehension about the confidence of the Federal Government, 
Congress included?
    Mr. Rodriguez. Congressman, I think it's actually a benefit 
of this hearing that we have a little bit more of a burden of 
information with people than I think we perceived. I think we 
need to make sure that the American people understand in a 
calm, reasoned dialogue, what we are doing, because what we are 
doing is rigorous; it is extensive; it is redundant; it is 
careful.
    Mr. Trott. So you are 100 percent confident that the 
process we have in place is going to work just fine going 
forward?
    Mr. Rodriguez. That it is a meaningful, rigorous, robust 
process that we are engaging in as aggressively as----
    Mr. Trott. In your mind, there's no value in just hitting 
the pause button. And, you know, many people have made this 
vote this afternoon into a political vote. It's not political 
at all. What Congress wants to do, and I think there will be 
many Democrats that join us, is hit the pause button and work 
in a collaborative fashion to make sure that our homeland is 
safe. There's no value in considering doing that, in your mind?
    Mr. Rodriguez. Again, I stand by what I've said about the 
process, so I don't think it's necessary that I repeat it. I do 
think we need to think about the costs of inaction.
    Mr. Trott. I spent 30 years--do you believe that the 
process can never be improved upon?
    Mr. Rodriguez. Well, of course. And, in fact, we are 
working every day to make sure that we refine our understanding 
about what's going on in these countries. We learn more, by the 
way, as we screen each and every refugee. So, of course, 
there's room for improvement. But the process, as it exists, is 
a robust, intensive, meaningful process.
    Mr. Trott. Okay. I'll yield back. Time is short.
    Thank you for being here today, sir.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize the gentleman from Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I appreciate you 
holding this hearing and your leadership on this issue, and I 
appreciate all the witnesses being here.
    I had a telephone town hall meetings with the people of the 
fourth congressional district of Texas, that I represent, just 
two nights ago. And it was similar to many of the telephone 
town hall meetings that I've had before, in a sense of I had 
about 8,000 people on the line at once. I've had as many as 3- 
and 400 people in the queue to ask me questions. And that's 
pretty typical. What wasn't typical was the uniformity and lack 
of diversity in the questions that I had. I didn't have a 
single question about ObamaCare. I didn't have a single 
question about government overreach and the EPA. I didn't have 
single question about $18 trillion of debt. I had 3- and 400 
questions about the Syrian refugee issue and the concern that 
ISIS may try and use gaps in our process to make America less 
safe.
    And there's really no exaggeration or hyperbole in what 
I've just related to you. It underscores and highlights the 
grave concern that the people in my district, and I think 
around the country, really have about this issue. And it's 
particularly relevant for us, because Texas, in the last year, 
has received--well, historically, has received the largest 
percentage of refugees for resettlement of any State in the 
country.
    Last year, for fiscal year 2014, 10 percent of all arrivals 
in the United States were resettled in Texas. And I think, or 
hope that we can all agree that the conflict in Syria, and ISIS 
has stated and promised, efforts to infiltrate the Syrian 
refugee process, presents us with a unique challenge here. And 
in light of these challenges, I think it's incumbent that we 
all honestly assess whether our system is equipped to protect 
the American people. And if it's not, we've got to hit pause 
while we fix the problem. And I know some have demonized this 
opinion, saying it lacks compassion. But to those folks, I 
would emphasize that America is the beacon of freedom to the 
world, in part, because it is a refuge, because it is a safe 
place for people to come. And if we sacrifice national 
security, we will weaken one of the very aspects of our country 
that attracts the weak and the vulnerable to our shores.
    So with that in mind, I want to start with you, Director 
Rodriguez. I understand that an applicant for refugee status 
must be cleared--or must clear all required security checks 
prior to final approval of their applications. But with respect 
to this process, do we admit individuals unless something 
negative appears during the screening process, or do we admit 
only for those--for whom we have information?
    Mr. Rodriguez. Yeah. We need to have confidence, one, that 
they can sustain the claim for refugee status. They're screened 
according to priorities by the United Nations' high 
commissioner on refugees, that's why a substantial number of 
them come as family units or victims of torture, victims, 
people who have been injured in war.
    We screen very carefully as to whether there are exclusions 
or bars that they apply, whether they have been affiliated with 
a terrorist organization. We have, in fact, ruled people out on 
those bases or placed them on hold because we have suspicion 
that those bases apply.
    Mr. Ratcliffe. So, I don't mean to interrupt. So it sounds 
like we screen--do we screen on the presence of information or 
based on an absence of information?
    Mr. Rodriguez. We screen for both. In other words, if there 
is insufficient information, insufficient contacts for us to be 
confident that this person is who they say they are, and their 
claim is what they say that it is, then that would be a basis, 
at a minimum, for that case to be placed on hold.
    Mr. Ratcliffe. Okay. So let me move on quickly. I want to 
address it from a State and local perspective. And I understand 
that the current law requires consultation with State and local 
government officials regarding refugee settlement in the 
community. But I understand that the extent to which that 
consultation actually takes place varies greatly. The 
consultation is supposed to result in the development of 
policies and strategies for the placement, resettlement of 
refugees, but as all of you probably know, as of yesterday more 
than 25 governors, including my governor in Texas, issued 
statements saying it would bar Syrian refugees from settling in 
their States.
    So I want to ask that question, would consultation take 
into account a desire on the part of a State's governor and 
residents to decline to accept refugees?
    Mr. Rodriguez. Congressman, I think Assistant Secretary 
Richard will take this question, actually.
    Mr. Ratcliffe. All right.
    Ms. Richard. On the issue of consultation with the State 
and local governments, you are absolutely right, that that is 
an important aspect of this program. We require that the local 
organizations that are partners with us in carrying out the 
refugee program have quarterly consultations, that they do this 
with the community leaders. Every State has a State refugee 
coordinator, who is reporting to the governor, but who works 
with the Department of Health and Human Services to make sure 
that there is suitable provisions made for the refugees.
    One of the things that Chairman Gowdy has reinforced in our 
discussions is that it's important that our partner 
organizations talk to the people who are the most responsible 
authorities at the community and State level. That they don't 
just talk to people who are interested in the program, but that 
they go to the police chief, the mayor, the school principal, 
the healthcare center, and make sure they know who's coming, 
what to expect, and that this, then, reinforces the community's 
acceptance and preparedness to welcome the refugees.
    You are right that Texas is the most welcoming State in the 
United States for hosting refugees. And I was surprised that so 
many governors spoke out so quickly. I think that what we have 
to do--we had our phone call with all the governors that the 
White House arranged, the day before yesterday, and I think we 
have to get more information out to people so that they 
understand what this program is, how it operates, and why we 
take such care in making sure it's done in a way that's safe 
for the refugees, of course, who have been through so much, but 
especially is run in a way, that the security of the American 
people is not in danger.
    Mr. Ratcliffe. I would love to follow up, but my time has 
long since expired. I appreciate and I thank the Chairman for 
his indulgence.
    Mr. Gowdy. The gentleman yields back. I want to let the 
witnesses know, votes have been called. In fact, the clock is 
on zero. So I am more than likely to miss votes, but I don't 
want you to think that any of my colleagues left because of 
disinterest. They have been called to the floor. It's just a 
really important issue in my district. So I'm willing to risk 
the wrath of missing votes to ask some questions.
    And I wanted to go last, because I wanted to hear everyone 
else's perspective. And I wrote a number of notes down, and I 
think I wrote them as accurately as they can be written. And 
this is the thought that kept going through my head.
    This past weekend, I saw a gentleman in my hometown walking 
away from a gas station carrying a gas can. So even I could 
figure out, his car ran out of gas. And I had to make a 
decision whether or not I was going to offer him a ride. And I 
did. I offered him a ride. That's a risk, however small, that I 
was willing to take for myself.
    I would never ask any of you to do that. You have to weigh 
and balance that risk yourself. I'm willing to get on an 
airplane today, because I want to get home quicker. The risk is 
very small something bad is going to happen. I'm not willing to 
go bungee jumping, even though the risk may also be small that 
something bad's going to happen.
    So I haven't heard a single one of you say there's no risk. 
In fact, you can't say there's no risk. Even Mr. Hetfield, I 
think he put two verys in front of it. He said it's very, very 
low. I don't know if it warrants two verys in front of it. But 
there is some risk. And nobody has said there's zero risk. And 
I think every one of you would agree that the potential 
consequences of us getting it wrong are maybe cataclysmic. That 
we have to be right every time. So the risk can still be small 
and something bad can happen. And what I'm trying to get folks 
to do is weigh and balance the risk versus the potentiality of 
us getting it wrong.
    So let me start here. Have we ever gotten it wrong in the 
past? Now, I'm not talking about Syrian refugees. I'm talking 
about any category of refugees. Have we gotten it wrong? Has 
our vetting failed in the past? Is anybody aware of a 
circumstance where our vetting has failed in the past? Not all 
at once.
    Mr. Krikorian. Well, I'll take that one, Congressman. The 
answer is, yes, many times. Just earlier this year, an Uzbek 
refugee, admitted as a refugee, was convicted of assisting 
terrorism. A couple of years ago, two Iraqi refugees, in 
Kentucky who had been admitted, it turned they had their 
fingerprints turn up later on IEDs.
    And so the critics of sceptics, the defenders of bringing 
Syrians, they insist on saying, no one has been convicted--no 
refugee has been convicted of terrorist--no Syrian refugee has 
been convicted of terrorist activities in the United States. 
But these Iraqis killed Americans abroad. That doesn't make me 
feel better that they are here.
    Mr. Gowdy. The conviction doesn't mean anything to me. The 
terrorist attacker is not going to be convicted, because he's 
dead. So you can't use conviction as a barometer for whether or 
not somebody has been a threat. They may not be around to 
convict.
    So, does anybody disagree that there have been failures in 
vetting? Is anybody taking the position that we have made no 
mistakes?
    Ms. Richard. Chairman Gowdy, I agree with you that in the 
history of the 3 million refugees who have come here, there 
have been a handful who have been a threat to the United 
States. And fortunately, they have been stopped before anything 
bad happened. And the two Iraqis in Kentucky were the most 
shocking example.
    They had done bad things in Iraq. They had lied to get into 
the country, and had our current system been in place, they 
would have been caught before they got here. And that's why the 
system has been improved since that episode.
    You had said a few things in life are risk free. I heard 
the governor of Washington State say, you take a risk when you 
get out of bed in the morning. I mean, there's a lot of dangers 
in the world, absolutely. But I think the program that we run, 
does as much as humanly possible to reduce the risks of 
bringing refugees to this country. And we have great confidence 
in it.
    And we invite members to come out to the field and meet 
some of the people who interview the refugees and sit through 
some of the briefings by Leon's team that I sat through. It's a 
very impressive, a very thorough event.
    Mr. Gowdy. And, Ms. Richard, that's what makes me hate 
waste, fraud, abuse, deception, so much, is that when anyone 
engages in it, it also impacts those who would never consider 
engaging in it. Because it makes everyone have to stop and 
think. There is some risk. There is a great reality that if we 
get it wrong something bad could happen. And you have to 
balance the risk with the potentialities of something bad 
happening.
    And when you do have people who abuse any system, believe 
it or not, there have been Federal judges who undergo rigorous 
screening, including going back and talking to neighbors from 
25 years ago, and they still turn out, we get it wrong with 
them from time to time. United States attorneys, serious FBI 
background checks with every available database, we still get 
it wrong from time to time. Even Members of Congress, believe 
it or not, we get it wrong from time to time. So that's what, 
that's what I'm--we can't do it this morning, but you can't say 
there's no risk. And I appreciate the fact that nobody has 
tried to say that.
    We all agree that we are dealing with an enemy that 
affirmatively wants to do whatever bad thing they can do to us. 
And I just think it's put the American people in a really, 
really tough position, particularly given the fact that public 
safety and national security are the preeminent functions of 
government. I do want to end, Ms. Richard, by thanking you for 
coming to South Carolina and noting that the reason you had to 
come to South Carolina was nothing that you had done.
    And to Mr. Hetfield and others in his line of work, you're 
exactly right. The sheriff needs to be talked to, the 
superintendents need to be talked to, the community needs to be 
talked to, not simply people who may be supportive. If you want 
to find out the truth, you got to talk to everybody, including 
those who may not support the program, so you can weigh and 
balance the competing evidence. You should not have had to come 
to South Carolina quite frankly. You should not have had to. It 
should have been done well before you and I ever met.
    So I think a lot of the information, the sooner it's shared 
and the more fully it's shared, the better people can make 
informed decisions. So as I leave to explain to the majority 
leader why I missed the vote, this is what I would encourage 
everyone to do, Mr. Rodriguez, Ms. Richard, what I really 
wanted to do, if we weren't going, is to get you to walk the 
American people through every step of the vetting process.
    I really do like the director of the FBI. But I also 
acknowledge that the FBI may be experts in this realm of data. 
You have access to other realms of data. And, again, people can 
draw whatever conclusions they want to draw. It's really none 
of my business. But until they have all the facts, you can't 
draw any conclusions. So to the extent you or someone else can 
just lay out for the American people every single step and 
every database you can access and every question you can ask 
and the training of the people doing the questioning, folks are 
still going to come down on different sides of this issue. They 
just are. But at least they'll know they did it having access 
to every bit of information.
    So with that, I want to thank all five, I do want to thank 
the Administration witnesses for agreeing to a single panel. I 
know that that is unusual. But given the circumstances of the 
day, it was a necessity. I thank all of our witnesses.
    And with that, I'm going to head to the floor. And we're 
adjourned. Thank you.
    [Whereupon, at 11:04 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                        __________
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               
                               
                                 <all>
</pre></body></html>
